         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Public Liaison Report




       EPA Has Improved Its Response
       to Freedom of Information Act
       Requests But Further
       Improvement Is Needed
       Report No. 09-P-0127

       March 25, 2009
Report Contributors:             Paul McKechnie
                                 Dan Cox
                                 Kimberly Crilly
                                 Edward Baldinger
                                 Shek Mark




Abbreviations

DECA         Division of Enforcement and Compliance Assistance
DOJ          Department of Justice
EPA          U.S. Environmental Protection Agency
ERRD         Emergency and Remedial Response Division
FACTS        FOIA Administrative Cost Tracking System
FOIA         Freedom of Information Act
GAO          Government Accountability Office
ILPG         Information Law Practice Group
OEI          Office of Environmental Information
OGC          Office of General Counsel
OIC          Office of Information Collection
OIG          Office of Inspector General
RIN          Request Identification Number
SOPs         Standard Operating Procedures
                         U.S. Environmental Protection Agency                                           09-P-0127
                                                                                                    March 25, 2009
                         Office of Inspector General


                         At a Glance
                                                                         Catalyst for Improving the Environment

Why We Did This Review           EPA Has Improved Its Response to
We sought to determine if the    Freedom of Information Act Requests
U.S. Environmental Protection    But Further Improvement Is Needed
Agency’s (EPA’s) Freedom of
Information Act (FOIA)
                                  What We Found
processing and reporting
procedures were meeting
current FOIA requirements        We found the following conditions during our evaluation:
and if any improvements
could be made.                      1. EPA has reduced its backlog of FOIA initial requests and appeals.
                                    2. EPA’s procedures did not always ensure that FOIA responses were timely
Background                             in all EPA program offices and regions, or that appeals were processed
                                       timely.
On December 14, 2005,               3. Optional training provided by the National FOIA Officer was only
President Bush signed                  attended by some EPA employees from each region.
Executive Order 13392,
Improving Agency Disclosure      Some of the annual personnel and cost statistics gathered and provided to the
of Information. In 2006,         National FOIA Officer for inclusion in the annual report to the Department of
Congress introduced FOIA         Justice (DOJ) were not accurate. The effect of these conditions is that EPA as a
amendment legislation to         whole (and not individually by region or program office) is not giving timely
improve agencies’ responses      responses to FOIA requests or appeals. The lack of complete and correct cost
to FOIA requests. Similar        information supplied to the DOJ in the annual report means that EPA may not
amendment legislation was        know how much of its budget it is spending on FOIA-related costs, and also that it
introduced in Congress in        is not meeting the specific statutory reporting requirement in Title 5 United
2007: HR1326, S849, S2427,       States Code § 552(e)(1)(G).
and S2488. Public Law 110-
175 was signed by President       What We Recommend
Bush on December 31, 2007,
as the Openness Promotes         We recommend that EPA issue a policy mandating training for its FOIA officers,
Effectiveness in our National    coordinators, and individuals who have FOIA responsibilities. The policy should
Government Act of 2007.          be supplemented by written standard operating procedures created for each
                                 regional and program office that issues FOIA responses. EPA should conduct a
For further information,         review of the regional and program FOIA offices in order to make
contact our Office of
Congressional, Public Affairs
                                 recommendations for any improvements.
and Management
at (202) 566-2391.               EPA concurred with our recommendations.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090325-09-P-0127.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 25, 2009

MEMORANDUM

SUBJECT:               EPA Has Improved Its Response to Freedom of Information Act Requests
                       But Further Improvement Is Needed
                       Report No. 09-P-0127


FROM:                  Eileen McMahon
                       Assistant Inspector General for Congressional, Public Affairs and
                       Management

TO:                    Linda A. Travers
                       Acting Assistant Administrator for Environmental Information and
                       Chief Information Officer

                       Patricia K. Hirsch
                       Acting General Counsel

This is our final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established resolution procedures.

The estimated cost of this report – calculated by multiplying the project staff days by the
applicable daily full cost billing rates in effect at the time – is $505,369.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the date of this report. You should include a corrective action plan
for agreed-upon actions, including milestone dates. We have no objections to the further release
of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions, please contact me at 202-566-2391, or Eric Lewis at
202-566-2664 or lewis.eric@epa.gov.
EPA Has Improved Its Response to Freedom of Information                                                                       09-P-0127
Act Requests But Further Improvement Is Needed




                                        Table of Contents

Chapters
1       Introduction .................................................................................................................     1

                     Purpose ..........................................................................................................    1
                     Background ....................................................................................................       1
                     Noteworthy Achievements..............................................................................                 2
                     Scope and Methodology.................................................................................                3
                     Statement on Internal Controls.......................................................................                 4

2       EPA’s Procedures Did Not Always Ensure that FOIA Responses
        Were Timely .................................................................................................................      5

                     Findings..........................................................................................................    5
                     Internal Controls and Compliance ..................................................................                   9
                     Recommendations ........................................................................................              9
                     Agency Comments and OIG Response .........................................................                           10
                     Subsequent Events ........................................................................................           10

3       Optional Training Provided by the National FOIA Officer Only Benefited
        Some Employees in Each Region .............................................................................                       12

                     Findings..........................................................................................................   12
                     Recommendation ...........................................................................................           14
                     Agency Comments and OIG Response .........................................................                           14
                     Subsequent Events ........................................................................................           14

Status of Recommendations and Potential Monetary Benefits……………………………                                                                      16



Appendices
A Agency Comments and OIG Response........................................................................                                17

B Distribution .....................................................................................................................      22
                                                                                  09-P-0127




                                Chapter 1
                                Introduction
Purpose
          Our purpose was to establish whether the U.S. Environmental Protection Agency
          (EPA) complies with Executive Order 13392, and current Freedom of Information
          Act (FOIA) provisions and implementing regulations. Our objectives included
          reviewing some of EPA’s program offices and regional FOIA offices to
          determine:

          •   whether EPA has procedures in place to assure that FOIA responses are
              adequate and timely,
          •   whether the optional training provided by the National FOIA Officer met
              EPA’s training needs, and
          •   whether the annual statistics the regional FOIA officers gathered and provided
              to the National FOIA Officer for inclusion in the annual report were accurate.

Background
          On December 14, 2005, President Bush signed Executive Order 13392, Improving
          Agency Disclosure of Information. With this Order, President Bush made clear
          his intent to strengthen executive agencies’ responses to FOIA requesters,
          requiring FOIA request responses to be courteous, appropriate, citizen-centered,
          and results-oriented to improve service and performance. The Order created
          Agency chief FOIA officers with responsibility and authority for:

          •   complying efficiently and appropriately with the FOIA;
          •   monitoring FOIA implementation throughout an Agency;
          •   recommending any necessary adjustments to agency practices, policies,
              personnel, or funding to an Agency head;
          •   reviewing and reporting (to the Attorney General) on an Agency’s
              performance in implementing the FOIA;
          •   facilitating understanding of the FOIA’s statutory exemptions;
          •   designating one or more FOIA public liaisons;
          •   considering other FOIA-related assistance an Agency can give to the public;
          •   ensuring that an Agency has method(s) to receive and respond promptly and
              appropriately to FOIA requesters about the status of their requests; and
          •   reviewing an Agency’s FOIA operations.




                                           1
                                                                                     09-P-0127


         EPA’s FOIA Requestor Service Center, which is required by Executive Order
         13392, was placed in the Office of Environmental Information, Office of
         Information Collection (OEI/OIC), and the FOIA Public Liaison is located in that
         office with the National FOIA Officer. EPA’s Chief FOIA Officer has oversight
         responsibility for EPA’s overall compliance with Executive Order 13392.

         In fiscal year ending September 30, 2006, EPA reported receiving 11,667 FOIA
         requests (which included all requests to the Agency). FOIA requests and fee
         waiver requests are processed by Headquarters or the regions in which they are
         received. The statutory and regulatory time limit for EPA to respond is 20
         working days. EPA aims to make a determination and provide records to the
         requester within this 20-working-day period. For a complex request, the requester
         is contacted to see if he or she is able or willing to limit or narrow the scope of the
         request to allow the Agency to process it within the 20-working-day statutory
         time limit or come to an agreement with the requester on a target date. If the
         requester does not modify the request, EPA attempts to respond to the request and
         provide records to the requestor within 20 working days or the negotiated time
         period. Fee waivers are approved or denied, using six criteria found in EPA’s
         FOIA regulations at 40 Code of Federal Regulations (CFR) 2.107, and FOIA
         Manual.

         On February 14, 2007, the Government Accountability Office (GAO) testified to
         Congress about its review of 25 agencies’ (including EPA’s) FOIA processing
         trends and agency improvement plans that are required by the Executive Order.
         The GAO conducted interviews with staff from EPA Headquarters to assess the
         status of the annual reports and look at the four criteria named in Executive Order
         13392 that EPA had to implement. GAO did not conduct interviews in the
         regional FOIA offices. The GAO’s final report, Freedom of Information Act,
         Processing Trends Show Importance of Improvement Plans, GAO-07-441, was
         issued on March 30, 2007.

         On December 31, 2007, President Bush signed the Openness Promotes
         Effectiveness in our National Government Act of 2007 [Public Law (PL) 110-
         175]. The law amends the Freedom of Information Act to, among other things,
         prohibit an agency from assessing search or duplication fees if it fails to comply
         with time limits, provided that no unusual or exceptional circumstances apply to
         processing the request, and to require each agency to make its FOIA Public
         Liaison available to assist in resolving any disputes between the requester and the
         Agency.

Noteworthy Achievements

         The Agency significantly reduced the backlog of FOIA requests. According to
         the Annual FOIA Reports, EPA had 12,790 initial FOIA requests pending as of
         September 30, 2001. (The Fiscal Year 2001 Annual FOIA Report did not have
         any data on overdue requests.) As of September 30, 2007, the pending requests


                                            2
                                                                                  09-P-0127


         were reduced to 1,727 requests. Then, as of September 30, 2007, the number of
         overdue initial FOIA requests was 783.

         Best Practices in the Regions Reviewed

         The National FOIA Office conducts monthly meetings and conference calls with
         all Headquarters FOIA Coordinators and Regional FOIA Officers to keep them
         abreast of new developments, changes in procedures, and processes.

         Region 2 generates a summary report each month, along with reports that are
         specific to each division telling them specifically which FOIAs are overdue.
         These reports are shared with senior management, including the Regional
         Administrator and Deputy Regional Administrator.

         Region 4 has written standard operating procedures for its FOIA processing
         which include training sessions for new FOIA specialists. During training, the
         specialists become certified on EPA records systems, such as Superfund, that
         have centralized record-keeping capability. That way, the FOIA specialists
         retrieve records directly and more quickly, and Region 4 can be more responsive
         to the requester. Region 4 also has a stand-alone system called FACTS (FOIA
         Administrative Cost Tracking System) that calculates and tracks all costs
         associated with FOIA requests, including costs for processing, actual salary,
         printing, and copying, which helps to assure the accuracy of their annual reported
         FOIA costs.

         The FOIA officers in Regions 2, 4, 5, and 10 each stated that they reserve the
         final closeout function in FOIAXpress to themselves or to the contractors that
         work under their direction. As a result, the FOIA officers can give a final review
         to a FOIA request to ensure that all responses are complete before the request is
         closed in the FOIAXpress system.

Scope and Methodology
         Our review consisted of two phases: preliminary research and field work. The
         scope of our preliminary research was reviewing the FOIA request responses and
         fee waiver determinations of Regions 2, 10, and the Office of Water, and an
         interview about the appeals backlog with the Office of General Counsel’s
         Information Law Practice Group (ILPG) for calendar year 2006. For field work,
         we expanded our scope to include Regions 4, 5, and 7. Our scope also included
         reviewing the FOIA cost statistics that were provided by the regional FOIA
         officers (in the regional offices we reviewed) to the National FOIA Officer to
         include in the 2006 annual report to the Department of Justice (DOJ). Our review
         was conducted from January 9, 2007, to March 6, 2008, and was conducted in
         accordance with Generally Accepted Government Auditing Standards.




                                          3
                                                                                   09-P-0127


          Our methodology included interviewing EPA Headquarters and regional FOIA
          personnel, and reviewing FOIA requests, fee waiver requests, and FOIA appeals
          that were open in calendar year 2006. We interviewed the National FOIA Officer
          in the Office of Environmental Information, Office of Information Collection
          (OEI/OIC), two Acting Assistant General Counsels for the Information Law
          Practice Group from the ILPG, and the FOIA officers and a random selection of
          the FOIA coordinators in Regions 2, 4, 5, 7, 10, and the Office of Water. Our
          review of the FOIA requests and fee waiver requests included reviewing any
          emails, phone logs, regular mail, or other documentation which would have
          shown evidence of the date, time, and subject of contact with the requester (and in
          particular in relation to evidence that an initial determination of a FOIA request
          was made within 20 working days of receiving that request). We also looked for
          evidence of a specific written notice (email or letter) of an extension of time on
          making an initial determination where the EPA did not make this determination
          within 20 working days of receiving the request.

          Our methodology also included (for FOIA requests and fee waivers reviewed)
          completing a sample checklist, composed of a set of questions we developed
          using the DOJ’s FOIA processing guidelines.

          We did not perform a statistical analysis. We did use statistical software,
          EZQuant, for large populations to help us determine the size and to randomly
          select our judgment samples. Specifically:

             •   In Regions 2, 4, 5, 7, 10, and the Office of Water we reviewed all fee
                 waiver requests, granted or denied.
             •   In Region 10 and the Office of Water we reviewed all open FOIA
                 requests.
             •   In Region 2 we reviewed all open FOIA requests more than 365 days past
                 the 20-working-day statutory time limit for making an initial
                 determination.
             •   In Regions 4, 5, and 7 we used the statistical software to randomly select
                 FOIA requests received.
             •   In the ILPG, we stratified all open appeal cases and took a judgmental
                 sample from each stratum. Then we used the statistical software to
                 randomly select the appeals to review.

Statement on Internal Controls
          We limited our review of internal controls during this review to those specifically
          related to the areas we reviewed. However, some of the conditions we presented
          in Chapters 2 and 3 occurred because the attention given to internal controls
          needed improving. This topic is further discussed in Chapters 2 and 3.




                                           4
                                                                                   09-P-0127




                                Chapter 2
    EPA’s Procedures Did Not Always Ensure that
           FOIA Responses Were Timely
Findings
           Our review of FOIA requests and appeals obtained from program and regional
           FOIA officers and the ILPG revealed that EPA did not always ensure that FOIA
           responses were timely. We found the following:

                  •   The regions did not consistently make an initial determination within
                      20 working days of receiving a request.
                  •   The regions did not always give the requester a written notice for an
                      extension of time for making an initial determination.
                  •   The ILPG did not have procedures in place to ensure that the oldest
                      appeals were processed first.

           Details of Findings in Region 2

           During our review of Region 2’s FOIA request files, we noted that Region 2 did
           not have any formal monitoring procedures to determine the status of FOIA
           requests. Region 2 typically receives more than 2,000 FOIA requests annually.
           Because of the quantity of requests received, formal monitoring procedures are
           needed to ensure timely completion. Region 2’s FOIA staffing may need to be
           reviewed to determine if it can adequately administer the FOIA function.

           After we reviewed the 57 FOIA requests that were sampled, we determined that
           no evidence existed that an initial determination was made within 20 working
           days of receipt for 28 of those 57 FOIA requests, and no sufficient evidence
           existed in the files to determine that any contact was made with the requestors
           notifying them of any delays in providing the requested information.

           There were multiple causes of the Region 2 conditions. When a FOIA request is
           logged into the system, the Region 2 FOIA officer often assigns the work to
           multiple divisions, typically the Division of Enforcement and Compliance
           Assistance (DECA), the Division of Environmental Planning and Protection, and
           the Emergency and Remedial Response Division (ERRD).

           The Region 2 FOIA officer discussed a monthly backlog report with the Region 2
           division directors listing all of the outstanding FOIA requests, but we noted no
           follow-up between a FOIA request being received and its appearing on the
           monthly backlog report, and we did not note any subsequent follow-up to
           determine the progress of the FOIA requests after they appeared on the backlog


                                           5
                                                                        09-P-0127


report. No documents existed indicating the dates and times of contact to and
from the requesters, because the FOIA coordinators did not follow any formal
record-keeping procedures.

Finally, not enough staff is assigned to respond to FOIA requests in certain
Region 2 program offices. The ERRD coordinator stated that he had been
overwhelmed with casework. He also stated that FOIA requests had been initially
assigned to his division and subsequently transferred to the Special Projects
Branch, and that the cases have either not been addressed or assigned, some for
more than 1 year. Based on discussions with the ERRD coordinator, we found the
following information:

   Table 1-1: Number of Requests Assigned to ERRD Coordinator
    FY Requests Were Assigned to
                                           No. of Requests
            the Coordinator
                FY 2004                         1,918
                FY 2005                         2,036
                FY 2006                         1,303
          FY 2007 (as of June)                  1,399
    Source: OIG analysis based on discussions with ERRD coordinator


Details of Findings in Region 4

When we reviewed Region 4’s FOIA request files, we determined that the dates
and times of contact to and from the requesters were not always documented,
because FOIA coordinators had no formal record-keeping procedures. Though
Region 4 has very extensive written standard operating procedures, it did not
include instructions for documenting all contact with the requesters. After we
completed our review, Region 4 added the instructions to the procedures.

After our review of 55 FOIA requests sampled, we determined that no evidence
existed that an initial determination was made within 20 working days of
receiving the request for 2 of those 55 FOIA requests. We also determined that
the Region did not have the underlying information in seven cases to support its
assertion that the Region had called the requester about the extension of time.

Details of Findings in Region 5

When we reviewed Region 5’s FOIA request files, we determined that the dates
and times of contact to and from the requesters were not always documented.
This was because the FOIA coordinators did not follow any formal record-
keeping procedures. Though Region 5 has written standard operating procedures,
those procedures do not include instructions for documenting all contact with the
requesters.

After reviewing 58 FOIA requests, we determined that no evidence existed that an
initial determination was made within 20 working days of receiving the request


                                    6
                                                                                                     09-P-0127


                 for 5 of the 58 FOIA requests that we sampled, and no evidence existed that a
                 written notification of extending time on making an initial determination was
                 given to the requester for 4 of those 5 FOIA requests.

                 Details of Findings in Region 7

                 When we reviewed Region 7’s FOIA request files, we determined that the dates
                 and times of contact to and from the requesters were not always documented.
                 From our review of 55 FOIA requests, we determined that no evidence existed
                 that an initial determination was made within 20 working days of receiving the
                 request for 12 requests, and that these same 12 requests lacked a written
                 notification for an extension of time.

                 The Region 7 FOIA officer identified the cause as a staffing problem, stating that
                 the exceptions occurred because she was sick and out for an extended amount of
                 time, and her office was understaffed.

                 Details of Findings in Region 10

                 When we reviewed Region 10’s FOIA request files, we determined that the dates
                 and times of contact to and from the requesters were not always documented.

                 Our analysis showed that no evidence existed in Region 10 that an initial
                 determination was made within 20 working days for 7 of the 68 FOIA requests
                 that we sampled. No evidence existed that a written notification for an extension
                 of time on making an initial determination was given to the requester for six of
                 those seven FOIA requests.

                 Region 10 did not have formal record-keeping procedures. This contributed to the
                 conditions noted during our analysis.

                 Details of Findings in Office of General Counsel

                 When we reviewed ILPG’s appeal cases, we found that appeal cases had been
                 delayed due to system and staffing inefficiencies.1 We also noted that the cases
                 were not processed systematically. As of January 2007, ILPG had 220 overdue
                 appeal cases. Of this universe, we sampled 38 cases—of those 38, 29 were still
                 pending action by ILPG, with the oldest dating back to January 1997, and the
                 average age equaling 31 months. ILPG is not giving timely responses to appeals,
                 and is not meeting the statutory requirement of 5 United States Code (USC) §
                 552(a)(6)(A)(ii), that a decision be made on an appeal within 20 working days
                 after receipt.



1
 The OIG has the authority to review and process its own FOIA appeals and this review did not include the OIG’s
processing of its appeals.


                                                       7
                                                                         09-P-0127


We identified three factors that contributed to the appeals backlog: regional and
program office delays, staff shortages, and inefficient case assignment control.

Regional and Program Office Delays

ILPG staff often experienced significant delays in receiving pertinent data from
regional or program offices, which prevent ILPG from processing appeal cases
timely. Before the launch of FOIAXpress, when ILPG received an appeal, it
issued a standard memorandum to the regional or program offices specifying what
documents were needed. Currently, the FOIAXpress system notifies regional or
program offices that an appeal has been filed by e-mailing a copy of the appeal.
FOIAXpress does not show a list of the documents required to be furnished to
ILPG by regional and program offices or provide any additional instructions.

However, the National FOIA Officer has started providing general guidance for
appeal cases to regional and program office personnel in the same email in which
the appeal is transmitted. In general, ILPG does not follow up with regional or
program offices to obtain the necessary documents to support appeal cases until
the case has been assigned to a specific attorney. ILPG is developing a more
effective mechanism to work with the regional and program offices to expedite
providing documents.

Staff Shortages

Of the 38 appeals we sampled, 16 appeals had not been assigned as of May 2007.
Of the pending appeals sampled, 1 was from 1997, 3 were from 2001, 2 were
from 2002, 3 were from 2003, 4 were from 2004, 6 were from 2005, and 10 were
from 2006. ILPG staff stated that sometimes a lack of available staff prevents
appeals from being addressed timely. For example, litigation issues with respect
to certain FOIA requests and appeals may cause other appeals to be delayed.
Also, during Fiscal Year 2007, the group experienced several absences, such as
the Assistant General Counsel out on an extended detail, a staff member out on
extended leave, and another staff member left the team for another position.

Ineffective Case Assignment Control

Appeals are not assigned to ILPG staff in a timely manner. In reviewing the 38
sampled appeals and other unassigned appeals, we noted that the appeals are not
assigned in the order received. Staff attorneys are at liberty to retrieve appeal
cases from a case cabinet maintained in ILPG without considering the
chronological order in which an appeal was received at ILPG. We confirmed this
situation when we found that 25 appeals (from the cabinet where unassigned
appeals are stored) were dated from 2001 through 2006. Of these 25 appeals, 18
were from 2006, 2 each were from 2004 and 2005, and 1 each was from 2001,
2002, and 2003. In analyzing these two case groups, we concluded that the
appeals were not being processed in the order of receipt, which the Acting



                                 8
                                                                                     09-P-0127


          Assistant General Counsel agreed should be the normal priority order, barring
          special circumstances mandating otherwise for certain cases.

          We confirmed this observation during a June 7, 2007, meeting with the Acting
          Assistant General Counsel for the Information Law Practice Group. ILPG did not
          have written instructions for its staff to retrieve appeals from the cabinet, or
          written instructions for assigning new appeal cases to ILPG staff. The staff was
          verbally instructed to retrieve files in order but as explained above this system did
          not work. However, after our initial site visit, the attorneys began writing their
          name and the date of retrieval in a log next to the file cabinet, and the Acting
          Assistant General Counsel for ILPG was keeping track of which attorney
          retrieved which case. He also said he would reassign a different appeal to the
          attorneys if older appeals were present that should be worked on first.

          Conclusion

          These conditions reflect on EPA as a whole, and indicate that EPA has not
          consistently met all statutory requirements of the Freedom of Information Act 5
          USC § 552 (a)(6)(A)(i) and (ii). This statute provides that an initial determination
          for a FOIA request (or an initial determination with respect to any appeal) shall be
          made within 20 working days of receiving such a request or appeal, absent
          unusual circumstances as defined in the Act. It also provides that a written notice
          for a time extension must be given to the requester if EPA cannot make a
          determination on a request within 20 working days of receiving such a request.

Internal Controls and Compliance
          EPA’s FOIA implementation is decentralized; no single person has authority over
          regional and program office FOIA response procedures. Without standardized
          FOIA guidance, EPA is vulnerable to a lack of quality control on a national level.
          In addition, FOIA training is not mandatory, which could further reduce quality
          control options for the EPA.

Recommendations
          We recommend that the Assistant Administrator for Environmental Information:

          2-1    Conduct periodic reviews of the FOIA processes and procedures at each of
                 the regional and program FOIA offices.

          2-2    Create written standard operating procedures for all regional and program
                 offices responsible for FOIA responses. FOIA procedures should be
                 standardized at the national level, so that all regions and program offices
                 are meeting the same basic FOIA processing requirements identified by
                 the OEI. Some of the elements we identified which could be included in a
                 written standard operating procedure include:



                                            9
                                                                                 09-P-0127


                    •   A requirement that all contacts with the requesters be documented.
                    •   A FOIA request discussion form template that all FOIA
                        coordinators can use to document their contact with the requesters.
                    •   A timeframe within which regional or program personnel gather
                        and submit documents for ILPG appeal cases.

         We recommend that General Counsel:

         2-3    Review the FOIA appeal process and implement a case control system for
                assigning and tracking appeal cases so that appeals can be completed more
                quickly.

Agency Comments and OIG Response
         EPA agreed to implement our recommendations and provided planned completion
         dates for the recommendations.

         EPA’s comments on our draft report, and our response to those comments, are
         included as Appendix A. They also provided a list of actions they have
         implemented after we completed our field work. We are providing the highlights
         below in a Subsequent Events section, and the complete list of Subsequent Events
         is included with the Agency’s response in Appendix A.

Subsequent Events

         Since our review, the Agency told us that some changes have been initiated in the
         EPA’s Headquarters and regions and the OGC.

         EPA says it reduced overdue initial FOIA requests from 23,514 in July 2001 to
         783 on October 1, 2007. EPA continued to reduce its initial requests backlog. On
         October 1, 2008, EPA further reduced the backlog to 717 overdue initial FOIA
         requests.

         Region 2 says it has greatly reduced its backlog and met the 10 percent goal set
         out in EPA’s FOIA Improvement Plan in response to Executive Order 13392,
         despite receiving by far the most FOIA requests of any single Agency office or
         region (214 backlog cases out of 2,291 requests received). For Fiscal Year 2008,
         Region 2 has only 4 backlog requests out of more than 300 new requests and
         continues to strive to improve these numbers even further. Region 2 has already
         eliminated all of the Fiscal Year 2004, 2005, and 2006 backlog requests. The
         Region is close to eliminating the 2007 backlog.

         Region 4 says it has had no overdue requests or backlog since June 2006 and
         included a public status inquiry on its FOIA page Website.




                                         10
                                                                      09-P-0127


The OGC says the ILPG has changed its practice of assigning appeals. Currently,
the Assistant General Counsel, ILPG, assigns the appeals to the team members for
processing. The office currently is evaluating a two-track system for processing
appeals. The ILPG has lowered the number of overdue appeals from
approximately 272 pending, September 2006, to 151 pending, October 2008.




                               11
                                                                                   09-P-0127




                                 Chapter 3
             Optional Training Provided by the
            National FOIA Officer Only Benefited
             Some Employees in Each Region

Findings
           We found the following conditions during our review which support the
           observation that all employees working on FOIA request responses did not benefit
           from the optional training provided by the National FOIA Officer.

                  •   Regional employees who work on FOIA requests do not always
                      document contact with requesters.
                  •   Regional FOIA officers do not always supply correct information for
                      annual reporting requirements.
                  •   Regional fee waiver response form letters are not always up-to-date.
                  •   Regional FOIA officers do not send the information requested for
                      appeals as quickly as they should.

           The National FOIA Officer currently conducts optional annual FOIA training in
           Washington, DC, to which EPA regions and program offices may send staff,
           depending on what their budgets allow. The last training class held by the
           National FOIA Officer was attended by 151 people, 46 of whom traveled to this
           training from multiple regions. However, evidence existed that the regional
           program employees who worked on FOIAs did not attend the national training.
           Typically, the regions send only FOIA officers and coordinators. The program
           personnel who collect the information and often speak directly with the requesters
           do not attend the FOIA training.

           The National FOIA Officer stated that he believed mandatory training for all EPA
           personnel responsible for responding to FOIA requests would help improve the
           FOIA process. The ILPG stated that more education and outreach was needed in
           the regions and program offices to ensure an understanding of the legal
           requirements for FOIA appeals responses and the need to provide all withheld
           documents during OGC’s processing FOIA appeals. The lack of mandatory FOIA
           training for all staff assigned FOIA responsibilities contributed to inefficient
           responses to FOIA requests and appeals, and thus to a lack of compliance with
           some provisions of Executive Order 13392.




                                           12
                                                                            09-P-0127


Contact with requesters is not always documented

In all of the regions we reviewed few, if any, documents indicated the dates and
times of contact to and from the requesters. The National FOIA Officer stated
that he has and would again instruct the regional FOIA officers that all contacts
with the requesters have to be documented.

Regional FOIA officers do not always supply correct information for
annual reporting requirements

The FOIA officers of Regions 2, 4, and 5 correctly reported all full- and part-time
FOIA personnel, and all other costs, to the National FOIA Officer, who reported
these costs in the annual report to the DOJ, as required by the Freedom of
Information Act, 5 USC § 552(e)(1)(G). However, the FOIA officers of
Regions 7 and 10 incorrectly reported the number of full- and part-time FOIA
personnel to the National FOIA Officer. The Region 10 FOIA officer incorrectly
identified herself as full-time FOIA personnel, and reported only 5 of the 16 part-
time FOIA personnel that she identified to us. When asked if the National FOIA
Officer verified this type of information reported to him by the regions, the
National FOIA Officer said that he did not. He said that he relies on the input of
the Regional FOIA Officers and National Headquarters FOIA Coordinators and
compares the report against previous years to ensure it is accurate. This control
does not work if the same mistake was made in the previous year. EPA stated the
error was not material but it has taken steps to improve the control to ensure
DOJ gets accurate data.

Regional fee waiver response form letters are not always up-to-date

Language used in fee waiver response letters was inconsistent with current DOJ
guidance. For example, some offices in Region 10 were using an outdated phrase
in form letters sent to fee waiver requesters. Some of these form letters
referenced the US DOJ FOIA Guide & Policy Act Overview (May 2002 Edition),
and stated that one of the six factors used in considering eligibility of a fee waiver
was “…You must demonstrate with reasonable specificity the ability to
understand and analyze the requested information….” DOJ’s FOIA Guide dated
May 2006 does not contain this language. Region 10 agreed with us that this
outdated phrase could be misconstrued by recipients, and also agreed to update its
fee waiver request form letters with the current guidance.

We believe that the outdated language contained in fee waiver response form
letters could be avoided by providing uniform direction and updated training to all
EPA FOIA officers and coordinators. We also note that fee waiver decisions are
made at the regional level, and it is possible for fee waiver requesters to submit
fee waiver requests to multiple regions simultaneously. This may present a
problem in the future if one region approves the fee waiver request while another
region simultaneously denies the same fee waiver request. EPA should consider



                                  13
                                                                                   09-P-0127


         centralizing the fee waiver determination function or establishing a cross-
         reference mechanism in FOIAXpress.

         FOIA officers and coordinators in regional and program offices do
         not support the appeal process as quickly as they should

         The regions and program offices have not provided documents to ILPG in a
         timely manner. ILPG representatives stated that they have been trying to develop
         a more effective mechanism to work with the regional and program offices to
         expedite collecting and submitting documents for ILPG’s appeal cases. They also
         stated that more ILPG education and outreach efforts about the FOIA appeal
         process to the FOIA coordinators were needed.

Recommendation

         We recommend that the Assistant Administrator for Environmental Information:

         3-1    Mandate training for all FOIA officers, coordinators, and individuals who
                have FOIA responsibilities. Specifically, we recommend that this training
                include or be supplemented by:

                    •   Specific instructions to document all contacts with the requester;
                    •   Direction to regional and program personnel to provide files in a
                        timely manner when there is an appeal; and
                    •   Instructions to all FOIA officers for completing the annual report,
                        so that all of the EPA’s FOIA officers can consistently and
                        correctly report costs and personnel information.

Agency Comments and OIG Response
         EPA agreed to implement our recommendation. It provided planned completion
         dates for the recommendation.

         EPA’s comments on our draft report, and our response to those comments, are
         included as Appendix A. EPA also provided a list of actions it has implemented
         after we completed our field work. We are providing the highlights below in a
         Subsequent Events section, and the complete list of Subsequent Events is included
         with the Agency’s response in Appendix A.

Subsequent Events

         Since our review, the Agency told us that some changes have been initiated in the
         EPA’s headquarters and regions and the OGC.




                                          14
                                                                     09-P-0127


The National FOIA Officer provided training to the Regional FOIA Officers and
the National Coordinators on preparing the FOIA Annual Report.

The National FOIA Office, in conjunction with the OGC, has provided FOIA
training in Regions 1, 9, and 10.

Region 4 says it conducted quarterly FOIA training.




                               15
                                                                                                                                          09-P-0127



                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                    Planned
 Rec.     Page                                                                                                     Completion   Claimed    Agreed To
 No.       No.                          Subject                           Status1         Action Official             Date      Amount      Amount

  2-1       9     Conduct periodic reviews of the FOIA processes            O        Assistant Administrator for    October
                  and procedures at each of the regional and                         Environmental Information       2011
                  program FOIA offices.

  2-2       9     Create written standard operating procedures for          O        Assistant Administrator for    October
                  all regional and program offices responsible for                   Environmental Information       2011
                  FOIA responses. FOIA procedures should be
                  standardized at the national level, so that all
                  regions and program offices are meeting the same
                  basic FOIA processing requirements identified by
                  the OEI. Some of the elements we identified which
                  could be included in a written standard operating
                  procedure include:
                    - A requirement that all contacts with the
                      requesters be documented.
                    - A FOIA request discussion form template that
                      all FOIA coordinators can use to document
                      their contact with the requesters.
                    - A timeframe within which regional or program
                      personnel gather and submit documents for
                      ILPG appeal cases.

  2-3      10     Review the FOIA appeal process and implement a            O            General Counsel            October
                  case control system for assigning and tracking                                                     2009
                  appeal cases so that appeals can be completed
                  more quickly.

  3-1      14     Mandate training for all FOIA officers, coordinators,     O        Assistant Administrator for    October
                  and individuals who have FOIA responsibilities.                    Environmental Information       2011
                  Specifically, we recommend that this training
                  include or be supplemented by:
                  - Specific instructions to document all contacts
                    with the requester;
                  - Direction to regional and program personnel to
                    provide files in a timely manner when there is an
                    appeal; and
                  - Instructions to all FOIA officers for completing
                    the annual report, so that all of the EPA’s FOIA
                    officers can consistently and correctly report
                    costs and personnel information.




O = recommendation is open with agreed-to corrective actions pending
C = recommendation is closed with all agreed-to actions completed
U = recommendation is undecided with resolution efforts in progress




                                                                                16
                                                                                        09-P-0127


                                                                                    Appendix A


              Agency Comments and OIG Response
MEMORANDUM

SUBJECT:              Public Liaison Report: EPA has Improved Its Response to Freedom of
                      Information Act Requests but Further Improvement is Needed

FROM:                 Molly A. O’Neill
                      Assistant Administrator for Environmental Information and
                      Chief Information Officer

                      Patricia K. Hirsch
                      Acting General Counsel

TO:                   Eric Lewis
                      Director, Special Reviews and Inspections
                      Office of the Inspector General

         We appreciate the opportunity to respond to the Office of the Inspector General’s (OIG)
findings as reported in, “Public Liaison Report: EPA has Improved its Responses to the Freedom
of Information Act Requests but Further Improvement is Needed,” Assignment No. 2007-
000399. We would like to thank you and your staff for your willingness to meet to resolve
comments and discuss your findings. We believe this collaborative approach was beneficial to
all parties. The Agency is committed to meeting its statutory obligations under FOIA and will
continue to improve the delivery of services to its customers.

        While the OIG questioned the accuracy of data reported by the Agency in its 2007 FOIA
Annual Report with respect to how one region reported its personnel information, the
Government Accountability Office (GAO), in its latest review of EPA’s FY 2006 FOIA Annual
Report stated that “EPA displayed appropriate internal controls and/or reviews for ensuring
completeness and accuracy of the data contained in their FY 2006 Annual Report.” With respect
to your finding, corrective actions have already been taken to ensure that FOIA personnel fully
understand how to accurately calculate personnel costs associated with processing FOIA
requests.

 OIG Response: The Agency said we questioned the accuracy of data with one region but we
 questioned the accuracy of data with Regions 7 and 10. Even though the GAO said EPA
 displayed appropriate internal controls, those controls did not detect the inaccurate personnel
 data.

        The Report referenced that GAO determined several agencies, including EPA, reported
relatively long median days to process complex requests in its various components. GAO
calculated the median days for EPA by looking at regional and headquarters offices as separate


                                               17
                                                                                       09-P-0127


entities and calculated a range of 4 days – 166 days. However, we believe it is worthwhile to
mention that when calculated from an Agency-wide perspective, the median days to process
complex requests across the Agency during the same time period was 40 working days.

 OIG Response: We deleted the quote from the report.


       Finally, the Agency’s response to the specific recommendations is provided below:




                                               18
                                                                                                                                   09-P-0127



                                                                                                                                     PLANNED
                                               SUBJECT                                                                             COMPLETION
REC. #    PAGE                                                                                       RESPONSE
           NO.                                                                                                                          DATE
 2-1        9     Conduct periodic reviews of the FOIA processes and procedures at        Accepted                                 Ongoing
                  each of the regional and program FOIA offices.                                                                   beginning 2nd qtr.
                                                                                                                                   FY 09.

 2-2        9     Create written standard operating procedures for all regional and       Accepted                                 1st qtr. FY10.
                  program offices responsible for FOIA responses. FOIA procedures
                  should be standardized at the national level, so that all regions and
                  program offices are meeting the same basic FOIA processing
                  requirements identified by the OEI. Some of the elements we
                  identified which could be included in a written standard operating
                  procedure include:
                    - A requirement that all contacts with the requesters be
                      documented.
                    - A FOIA request discussion form template that can be used by
                      all FOIA coordinators to document their contact with the
                      requesters.
                    - A time frame within which regional or program personnel
                      gather and submit documents for ILPG appeal cases.


 2-3        10    Review the FOIA appeal process and implement a case control             Accepted                                 Ongoing
                  system for assigning and tracking appeal cases so that appeals can be                                            end 2nd qtr. FY 09.
                  completed more quickly.

 3-1        13    Mandate training for all FOIA officers, coordinators, and individuals   Accepted. OEI and OGC                    Beginning the 1st
                  who have FOIA responsibilities. Specifically, we recommend              conducted training in 4th qtr ‘08 in     qtr of FY 09.
                  that this training include or be supplemented by:                       Regions 1, 9 and 10. Additional
                                                                                          training is being scheduled. OEI
                                                                                          will develop and implement a
                                                                                          training plan to allow all FOIA
                                                                                          Officers, coordinators and
                                                                                          individuals who have FOIA
                                                                                          responsibility the opportunity to
                                                                                          participate in FOIA training
                                                                                          provided by the Agency.



                  - Specific instructions to document all contacts with the requester;    OEI already provided such                1st qtr. FY10.
                                                                                          guidance but will include this
                  - Direct regional and program personnel to provide files in a timely    section in the written standard
                    manner when there is an appeal; and                                   operating procedures.


                                                                                          OEI had provided guidance at             1st qtr. FY10.
                  - Provide instructions to all FOIA officers for completing the annual   monthly meeting and conference
                    report, so that all of the EPA’s FOIA officers can consistently and   calls, but will also include a section
                    correctly report costs and personnel information.
                                                                                          in the written standard operating
                                                                                          procedures.




              If you have any questions, please contact Larry F. Gottesman, National Freedom of
       Information Act Officer at (202) 566-2162.




                                                                       19
                                                                                        09-P-0127


                                      Subsequent Events


National FOIA Program

   •   EPA reduced it overdue initial FOIA requests from 23,514 in July 2001 to 783 on
       October 1, 2007. EPA continued to reduce its initial requests backlog. On October 1,
       2008 EPA further reduced the backlog to 717 overdue initial FOIA requests.

   •   The National FOIA Officer provided training to the Regional FOIA Officers and the
       National Coordinators on preparing the FOIA Annual Report.

   •   The National FOIA Office in conjunction with the Office of General Counsel has
       provided FOIA training in Regions 1, 9 and 10.

Region 2

   •   Region 2 FOIA Officer also performs the final closeout function. The region greatly
       reduced its backlog and met the 10% goal set out in EPA’s FOIA Improvement Plan in
       response to EO 13,392, despite receiving by far the most FOIA requests of any single
       Agency office or region (214 backlog cases out of 2291 requests received). For FY 08,
       Region 2 has only 4 backlog requests out of more than 300 new requests and continues to
       strive to improve these numbers even further.

   •   Region 2 has also implemented changes to the FOIA processing due to the workload on
       Emergency and Remedial Response Division (ERRD) and on Division of Enforcement
       and Compliance Assistance (DECA,) Public Affairs Division (PAD), the office that
       houses the Regional FOIA Officer has now taken on many of the routine searches,
       including CERCLIS, WASTLAN and UST. This minimizes the need to consult between
       divisions and reduces turn around time. In the past year alone, PAD has taken on more
       than 400 of these cases and the backlog is a small fraction of what it used to be. Region 2
       is aware of heavy workload issues and has taken steps to address them. The FOIA
       coordinator and PAD management have held numerous meetings w/ERRD staff and
       management to develop a plan to alleviate workload issues. With PAD’s cooperation and
       senior management awareness, Region 2 has already eliminated all of the FY 04, 05 and
       06 backlog requests and are close to eliminating the ’07 backlog, with a deadline of
       January 31, 2008 to complete this task. The region has only four overdues for FY ’08
       (out of about 350 requests that have been received to date).

   •   Region 2 does not have formal written SOPs, though they are currently drafting some
       based on SOPs from other regions. However, Region 2 does have formal procedures,
       which include monthly summary and Division-by-Division detailed reports for all
       overdue FOIAs, which are shared and discussed with senior management on a monthly
       basis in their regular senior management meeting with the RA and DRA. Furthermore,



                                               20
                                                                                       09-P-0127


       Region 2 has set internal processing deadlines, communicated by the Public Affairs
       Director to her Division Director colleagues.

   •   Region 2 utilizes the electronic FOIA database to determine the status on all FOIA
       request. Additionally, the correspondence log section of the application contains detailed
       progress reports involving internal emails as well as communications with requestor.
       Auditor was provided copies of progress communications contained in correspondence
       log.

Region 4

   •   Region 4 has achieved: (1) no overdue or backlog since June 2006; (2) a public status
       inquiry on Region 4’s FOIA page website; and (3) FOIA training conducted quarterly for
       Region.

   •   Region 4 FOIA Officer reviews each response letter before final signature to ensure
       response meets the statutory due date and procedural requirements.


Region 5

   •   Region 5 has guidance that staff document changes in writing to the requester and a copy
       if provided to the Regional FOIA Officer. We feel that our Regional Office needs better
       enforcement of this documentation in our files as opposed to not having this guidance.
       We will take steps to remedy this and will work with program to make sure
       documentation is provided to the Regional FOIA Office. Additionally, our EPA FOPIA
       regulations does state the need to confirm any changes in due dates and program offices
       refer to our regulations for guidance.

Office of General Counsel

   •   The Office of General Counsel, General Law Office, Information Law Practice Group
       has changed its practice of assigning appeals. Currently, the Assistant General Counsel,
       General Law Office, Information Law Practice Group assigns the appeals to the team
       members for processing. The office currently is evaluating a two-track system for
       processing appeals.

   •   The Office of General Counsel, General Law Office, has lowered the number of overdue
       appeals from approximately 272 pending, September, 2006 to 151 pending, October,
       2008.




                                               21
                                                                                    09-P-0127


                                                                                Appendix B


                                    Distribution

Office of the Administrator
Acting Assistant Administrator for Environmental Information and Chief Information Officer
Acting General Counsel
Acting Regional Administrator, Region 2
Acting Regional Administrator, Region 4
Acting Regional Administrator, Region 5
Acting Regional Administrator, Region 7
Acting Regional Administrator, Region 10
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Director, Office of Regional Operations
Audit Follow-up Coordinator, Office of Environmental Information
Acting Inspector General




                                             22
